     OFFICE OF
INSPECTOR GENERAL




      Richard P. Kusserow
      INSPECTOR GENERAL
                      OFFICE OF INSPECTOR GENERAL
The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program, and management problems, and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES
The OIG’s Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS
The OIG’s Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS
The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of Mark R.             Ph.D., the Regional
Inspector General, and Martha B. Kvaal, Deputy Regional Inspector General, Boston Region,
Office of Evaluation and Inspections. Participating in this project were the following people:

Boston Region                                      Headquarters
David Veroff, Project Leader                       Mary Beth Clarke
David Schrag, Lead Analyst                         Penny Thompson
Barry McCoy                                        Barbara Tedesco
Fred Kwan
              EXECUTIVE                         SUMMARY


PURPOSE

The purpose of this study is to estimate to what extent physicians are offered gifts and
payments from pharmaceutical companies.

BACKGROUND

There has been much attention paid recently to prescription drug promotion practices
involving payments and gifts. In December 1990, the Senate Labor and Human
Resources Committee held hearings that highlighted questionable promotional          *
practices. At these hearings, the American Medical Association (AMA) announced
the release of ethical guidelines on gifts to physicians from industry. The
Pharmaceutical Manufacturers Association (PMA) immediately adopted these
guidelines in full.

In August 1991, we reported the range of prescription drug promotion practices
involving payments and gifts. We discussed the vulnerabilities such practices present
and the responses of government and private groups to inappropriate and illegal
practices.

We found that gifts and offers of value related to studies, speaking engagements, and
program attendance are used by pharmaceutical companies to promote their drugs.
We also found that promotional practices involving items of value appear to affect
physicians’ prescribing decisions. The medical community and the pharmaceutical
industry consider certain promotional practices involving items of value to be
inappropriate. It is unclear, however, what effect their recently developed ethical
guidelines have had and will have on pharmaceutical companies and physicians. The
Department of Health and Human Services (HHS) has taken initial action in
controlling inappropriate or illegal activity. In particular, the Food and Drug
Administration (FDA) has drafted guidelines defining the difference between scientific
education and promotion.

We concluded in our first report that the concerns raised by our findings warranted
further monitoring of prescription drug promotion. As part of that effort, we have
selected a national random sample of approximately 1,000 physicians to inquire about
items of value offered to them by pharmaceutical companies.

We asked physicians questions about the offers that had been extended to them in the
previous 12 months. The period covered by our survey was fall 1990 to fall 1991. The
objective of our study is not to evaluate the effectiveness of the         guidelines,
which were in effect for most but not all of our survey period. We do, however, use
the guidelines as reference points to classify the offers.


                                           i
FINDINGS

                                                       on at     one           in the year
prior to fall                    of                        frequently                 pens,
             pharmaceutical samples for personal or family             and &inks;
                         included travel           and          for attending educational
             and              for participation in

        Pharmaceutical companies offered gifts and payments on an average of
        occasions to each physician and offered gifts and payments other than small
        gifts such as pens and notepads on an average of 13 occasions to each
        physician.                                                                            .
       According to physicians’ estimates, the median value of all gifts and payments
       offered each physician was $125.

       Pharmaceutical companies were more likely to offer gifts and payments to
       physicians who were frequent prescribers than to those who were infrequent
       prescribers.

In the year prior to fall                                           many               or
          that are              defii by the                                as being
                These                gifts that bear no relation to the          work and
payment of travel           or honoraria for attending educational            or

       Pharmaceutical companies offered such gifts or payments at least once to 27
       percent of physicians.

       Pharmaceutical companies offered such gifts or payments at least once to 36
       percent of physicians who wrote at least 50 prescriptions a week.

       Some of these offers, in addition to being defined as inappropriate, may be
       illegal.

                                 of                            is not             some
       In the year prior to fall                                           many
gijIs0rpaymenBthatfallhtogmyarearintheguideline.s.

’      Pharmaceutical companies offered 5 1 percent of physicians pharmaceutical
       samples for their own or their family’s use. These offers may have        no
       relation to the physicians’ practice and may not have entailed benefits to
       patients.

       Pharmaceutical companies offered physicians compensation for involvement in
       different types of focus groups and studies. Some of these offers may have
       been token consulting arrangements or gifts with strings attached.


                                             ii
RECOMMENDATIONS

Although the findings of this study do not allow us to measure the effects of the
             guidelines, the evidence of so many offers now seen as inappropriate
raises some important conclusions. If most of these offers took place prior to the
guidelines’ promulgation, then these findings indicate that the guidelines addressed a
significant problem and that continued attention to their adherence is necessary. If,
however, some of the offers have taken place since the implementation of the
guidelines, more attention should be paid to their adherence. Our recommendations
focus on further clarifications the Department of Health and Human Services and the
PMA should make on the interpretation of certain offers.

                  Service (PHS),             the Food and Drug                   (FDA),
                                   what it                         activity and what it


       These guidelines would clarify how important FDA considers gifts and
       payments associated with educational seminars and meetings to be in indicating
       promotional intent.

                                                    should work with the American Medical
Association to more           define          of           in the                    of


       Improved clarity is necessary in areas of market surveys, focus groups, and
       marketing surveillance research.



We received written comments on our draft report from the Assistant Secretary for
Health (PHS), the American Medical Association (AMA), the Pharmaceutical
Manufacturers Association (PMA), the Accreditation Council for Continuing Medical
Education (ACCME), and the Public Citizen Health Research Group (PCHRG). The
full texts of these comments are in Appendix E. We also received notice of
concurrence with no elaboration from the Assistant Secretary for Planning and
Evaluation.

The PHS concurred with the recommendations of our report. They also made several
technical comments resulting in our making slight changes in presentation, including
more information about biasing effects. The AMA cited the importance of our study
and had favorable comments about it. The PMA felt the report had significant
methodological flaws and problems with the reporting of the results and conclusions.
We addressed the          comments about the presentation of the value of offers, but
disagree with the remainder of their comments. The ACCME made supportive




                                              111
comments. The PCHRG supported our findings. However, because they felt our
findings demonstrated that the           guidelines have failed, they suggested that
we recommend legislation banning gifts and payments extended for promotional
purposes. Because we cannot draw conclusions about the effectiveness of the
guidelines, we have not incorporated          suggestion to recommend new
legislation.




                                         iv
                        TABLE OF CONTENTS



                          .....        .   . . I . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


Most Physicians Were Offered At Least One Gift or Payment . . . . . . . . . . . . . . . . . 3


Many Physicians Were Offered Inappropriate Gifts or Payments . . . . . . . . . . . . . . .

Other Offers Fall Into Gray Areas in                                   Guidelines . . . . . . . . . . . . . . . . . 8


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


COMMENTS ON DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


APPENDICES


A. Ethical Guidelines . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A . 1


B. Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B . 1


C. Offers by Specialty . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . C - 1


D. Questionnaire . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . D - 1


E. Detailed Comments on Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . E . 1


F. Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . F- 1

                         INTRODUCTION


The purpose of this study is to estimate to what extent physicians are offered gifts and
payments from pharmaceutical companies.

BACKGROUND

There has been much attention paid recently to prescription drug promotion practices
involving payments and gifts. In December 1990, the Senate Labor and Human
Resources Committee held hearings that highlighted questionable promotional
practices. At these hearings, the American Medical Association (AMA) announced
the release of ethical guidelines on gifts to physicians from industry. The
Pharmaceutical Manufacturers Association (PMA) immediately adopted these
guidelines in full.’

In August 1991, we reported the range of prescription drug promotion practices
involving payments and gifts. We discussed the vulnerabilities such practices present
and the responses of government and private groups to inappropriate and illegal
practices.

We found that gifts and offers of value related to studies, speaking engagements, and
program attendance are used by pharmaceutical companies to promote their drugs.
We also found that promotional practices involving items of value appear to affect
physicians’ prescribing decisions. The medical community and the pharmaceutical
industry consider certain promotional practices involving items of value to be
inappropriate. It is unclear what effect their recently developed ethical guidelines
have had and will have on pharmaceutical companies and physicians.’ The
Department of Health and Human Services (HHS) has taken initial action in
controlling inappropriate or illegal activity. In particular, the Food and Drug
Administration (FDA) has drafted guidelines defining the difference between scientific
education and promotion. The FDA has also set up a hotline for physicians and
others to report questionable promotional

We concluded that the concerns raised by our findings warranted further monitoring
of prescription drug promotion. As part of that effort, we undertook a national survey
of physicians to inquire about items of value that had been offered to them by
pharmaceutical companies. We mailed surveys to 997 physicians who bill the
Medicare program. We received 617 usable responses from physicians in a wide
variety of specialties and locations. For details on our sampling selection, survey
methods, survey instrument, possible biases, and respondent profiles, see appendix B.

We asked physicians several background questions and then inquired about whether
they had been offered a variety of gifts, promotional offers, research funding or
payments, and payments or travel for attending or presenting at educational or other

                                           1
programs. We asked about how often these offers had been presented and what their
value was, and then whether there were obligations to prescribe drugs attached to the
offer. For offers involving educational programs, we asked whether or not they were
offered continuing medical education credits for the program.

We asked physicians questions about the offers that had been extended to them in the
previous 12 months. The period covered by our survey was fall 1990 to fall 1991. The
objective of our study is not to evaluate the effectiveness of the         guidelines,
which were in effect for most but not all of our survey period. We do, however, use
the guidelines as reference points to classify the offers.

We present all data without factoring in any biasing effects of a 38 percent
nonresponse rate and false or incorrect reporting by respondents. As we argue in       ’
appendix B, these biasing effects are likely to cause underreporting of the frequency
and size of the offers extended. Therefore, figures on frequency and size of offers in
this report are likely to be conservative estimates.

Our review was conducted in accordance with the Interim             for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                           2

                                FINDINGS


Pharmaceutical companies                or          on at      one occasion in the year
                to 82         of physicians.

       Pharmaceutical companies offered gifts and payments on an average of 28
       occasions to each physician and offered gifts and payments other than small
       gifts such as pens and notepads on an average of 13 occasions to each
       physician.

Pharmaceutical companies offered gifts or payments on at least one occasion in the      .
past year to 82 percent (95 percent confidence interval is 3 percent) of physicians
and on 5 or more occasions to 79 percent.’ These offers ranged from small gifts such
as prescription pads and pens to major funding for research activity. On average,
pharmaceutical companies offered gifts or payments 28 times 4) to each physician
in the year prior to fall       Most physicians (77 percent) were offered small gifts
such as pens and prescription pads, but, on average, each physician was offered at
least one more substantive gift or payment. Pharmaceutical companies offered gifts or
payments other than small gifts to 71 percent of physicians; they extended these offers
on an average of 13 occasions 3) to each physician.’ Commonly offered items
included pharmaceutical samples for personal or family use (50 percent), meals or
drinks (37 percent), and payment for participating in focus group sessions (18
percent). (See table 1 for more detail.)

       According to physicians’ estimates, the median value of all gifts and payments
       offered each physician was $125.

The value of the offers that pharmaceutical companies made to physicians ranged
from $0 to $38,315. The median total dollar value physicians ascribed to items offered
to them during the year was $125. The median value of each offer was
approximately $10. Three offers for research funding were $20,000 or more.

Offers involving research and educational activities were worth more than those
involving gifts. Compensation for research involving an experimental drug not yet
approved by FDA had a median value of $1,250 and travel and/or accommodation
expenses to attend a program or meeting at which the physician did not present
information had a median value of $550. (See table 1 for detailed information.)




                                           3

                                     Table 1

                Offers from Pharmaceutical Companies to Physicians





  al programs at which the physician was not a




OIG      of Physicians, Fall 1991.




                                                 4

       Pharmaceutical companies were more likely to offer gifts and payments to
       physicians who were frequent prescribers than to those who were infrequent
       prescribers.

We asked physicians how many prescriptions for drugs they write per week.
Pharmaceutical companies offered at least one gift or payment to 89 percent of the
physicians who write at least one prescription per week; they offered at least one gift
or payment to 35 percent of the physicians who do not prescribe drugs (this difference
is significant: chi-square value is 96 at 1 degree of freedom). They were also more
likely to offer gifts and payments to physicians who frequently prescribe drugs than to
physicians who less frequently prescribe drugs. For example, pharmaceutical
companies offered at least one payment or gift to 94 percent of the physicians who
write at least 50 prescriptions a          Figure 1 displays the relationship between
number of prescriptions written and percent of physicians offered at least one
          or gift.
                                        Figure 1
               Frequent Prescribers are More Likely to Be Extended Offers

         95-
         90-

         80-
         75-
         70-
         65-
         60-
         55-


         z-
         35-
         30-
         25-
         20-


          5-




We also asked physicians to identify their primary specialty and classified their answers
into forty-three specialties. Pharmaceutical companies extended offers to many
physicians in high-prescribing specialties, such as internal medicine, family practice,
dermatology, and cardiology. (See appendix C for more detailed information.)



                                           5

In the year prior to     1991,                                                            or
payments       are specifically       by the                               as being


On December 3, 1990, the American Medical Association revised its ethical code to
incorporate new guidelines on gifts to physicians from the              The
Pharmaceutical Manufacturers Association endorsed these guidelines in full. These
guidelines define acceptable and unacceptable offers in some areas. The following are
specified as offers that are not appropriate for physicians to accept or pharmaceutical
companies to offer:
       *       Gifts of cash
       *       Gifts that are not related to the physician’s work or that do not entail
               benefits to the patient
       *       The cost of travel, lodging, and other personal expenses of physicians
               attending meetings
       *       Subsidies to compensate for the physician’s time attending a meeting
       *       Token consulting arrangements
       *       Gifts with strings attached

Some of these guidelines outline activities that are difficult (if not impossible) to
examine in a survey of physicians. For example, it is difficult to distinguish between
token and real consulting arrangements. However, we asked physicians whether
they had been offered several items that are now clearly prohibited by the guidelines:
gifts of cash, travel and/or accommodation expense for attending a meeting for the
physician and for a spouse or companion, and certain gifts that are not related to the
physician’s work or that do not entail benefits to the patient.”

       Pharmaceutical companies offered gifts or payments explicitly defined by the
       current             guidelines as being inappropriate on at least one occasion
       to 27 percent of physicians.

Pharmaceutical companies offered entertainment or sporting event tickets to 6 percent
of the physicians, other items for personal or family use to 6 percent, gifts of money to
1 percent, gifts that required the physician to prescribe a company’s drug as a
condition for receiving the offer to 1 percent, travel to and/or accommodations at a
program at which the physician was not a presenter to 11 percent, a spouse or
companion’s travel to and/or accommodations at a program at which the physician was
not a presenter to 6 percent, and cash honoraria for attending a program at which the
physician was not a presenter to 11 percent. All of these offers were specifically
defined by the PMA guidelines as being

On average, the total value of the offers prohibited by the PMA guidelines was $574
(median value was $105). Pharmaceutical companies offered 4 percent of physicians
gifts or payments outside of the guidelines on 10 or more occasions, including one
physician who was offered gifts or payments prohibited by the guidelines on 33
occasions.

       Pharmaceutical companies offered gifts or payments explicitly defined by the
       current             guidelines as being inappropriate on at least one occasion
       to 36 percent of physicians who wrote more than 50 prescriptions a week.

Physicians who are heavy prescribers of drugs were more frequently offered gifts and
payments outside of the guidelines. For example, pharmaceutical companies offered
such gifts or payments on at least one occasion in the last year to 30 percent of the
physicians who write 5 or more prescriptions a week, 31 percent of the physicians who
write 10 or more prescriptions a week, and 36 percent of the physicians who write 50
or more prescriptions a week.”

       Some of these offers, in addition to being defined as inappropriate, may be
       illegal.

The Medicare and Medicaid anti-kickback statute (42 U.S.C.                        makes it
a felony for a person or entity to knowingly and willfully offer, pay, solicit, or receive
any remuneration with the intent to induce or in return for the ordering or furnishing
of items or services paid for in whole or in part under the Medicare or Medicaid
programs. A person or entity is also subject to exclusion from participation in the
Medicare and Medicaid programs for a knowing and willful violation of the
kickback statute, 42 U.S.C.           7(b) (7).

The offering of compensation or gifts based on the number of prescriptions for
pharmaceuticals which might be paid for by the Medicare and Medicaid programs
could breach the anti-kickback statute. A total of 18 (nonresearch) offers of
“remuneration” were made to physicians requiring the prescribing of a particular drug
as a condition for receiving the offer. To the extent that these drugs were covered
and reimbursed in whole or in part by the Medicare or Medicaid programs, the
offering and receipt of such remuneration could be considered as violative of the
kickback statute.

In addition, the offers of compensation for conducting studies that required prescribing
the drug being studied to people who were not previously taking it could, depending
on the design of the study, be in violation of the anti-kickback provisions.
Pharmaceutical companies made offers of this type to 4 percent of the physicians.




                                            7

                            dejiin of what    inappropriate not precise some
cases. In the year                                  companies       many   or
payments that               areas in the

       Pharmaceutical companies offered 51 percent of physicians pharmaceutical
       samples for their own or their family’s use. These offers may have had no
       relation to the physicians’ practice and may not have entailed benefits to
       patients.

The                 guidelines clearly disapprove of pharmaceutical companies offering
any gift that is not related to the physician’s work or that does not entail benefits to a
patient. It is difficult to see how paying patients get any benefit from companies
offering pharmaceutical samples to physicians for their own or their family’s use. Yet,
pharmaceutical companies offered 51 percent of the physicians pharmaceutical
samples for their own or their family’s

       Pharmaceutical companies offered physicians compensation for involvement in
       different types of focus groups and studies. Some of these offers may have
       been token consulting arrangements or gifts with strings attached.

The              guidelines are vague in their definition of inappropriate or
appropriate research funding by pharmaceutical companies, disapproving only of token
consulting arrangements and gifts with strings attached.” None of the questions we
asked directly addressed these issues, but we did delineate several types of research
funding.

Pharmaceutical companies offered 4 percent of physicians compensation for
conducting studies that required prescribing the drug being studied to people who
were not previously taking it. Some legitimate research protocols require the patients
involved to be “virgin” patients to limit the biasing effects of a patient having used the
drug previously. But, if the study is being done for promotional purposes and the use
of research funding is simply to start patients on a particular drug, it could be seen as
a gift with strings attached.

Pharmaceutical companies offered 2 percent of physicians compensation for
conducting studies that required recording demographic, but not clinical information.
This type of research could be seen as illegitimate scientific research and, therefore,
may be token consulting.

Finally, focus groups could be used for purposes disapproved of by the
guidelines (see note 13 for a more detailed discussion). It is not clear whether some
of these sessions were simply token consulting arrangements. Pharmaceutical
companies offered 19 percent of the physicians compensation for participating in focus
group sessions.
                   ” R E C. O. .M M E N D A T I O N S
Although the findings of this study do not allow us to measure the effects of the
             guidelines, the evidence of so many offers now seen as inappropriate
raises some important conclusions. If most of these offers took place prior to the
guidelines’ promulgation, then these findings indicate that the guidelines addressed a
significant problem and that continued attention to their adherence is necessary. If,
however, some of the offers have taken place since the implementation of the
guidelines, more attention should be paid to their adherence. Our recommendations
focus on further clarifications the Department of Health and Human Services and the
PMA should make on the interpretation of certain offers.

    public Health Service (PHS), through the Food and                      (FDA),
                                 what it considers promotional        and what
         scientific

The FDA has the responsibility for overseeing promotional activities of pharmaceutical
                 It released a draft concept paper in October 1991 on
pharmaceutical company-supported activities in scientific or educational
In this paper, FDA spells out the proposed conditions for educational seminars not to
be seen as promotional. Included in this draft is a statement about gifts: ‘The
following factors suggest promotional intent: (a. GIFTS) Inducements (other than
perhaps meals or token gifts), e.g., travel or lodging subsidies, are provided to
encourage attendance of the target audience.” By making this statement an official
guideline, FDA would clearly interpret many of the offers attached to seminars
mentioned in our survey as indicating promotional intent. This type of policy
statement would be very helpful in delineating FDA’s opinion on certain gifts and
payments.

                                   Association               with the American Medical
Association to more                       of propriety in the remaining gray areas of


Although we are unable to determine the effect of the guidelines on relations with
industry that the American Medical Association developed and the Pharmaceutical
Manufacturers Association adopted, the guidelines have clearly heightened awareness
of the issues and have likely slowed the prevalence of inappropriate gifts and
payments. For this reason, we feel it is important to expand the guidelines to more
effectively define inappropriate activities in the areas of research and focus groups.
Clarifying what determines a “string attached gift” or “token consulting arrangement”
would allow the pharmaceutical industry to make clear cut decisions about what are
and are not appropriate ways of conducting post-marketing and market research.




                                           9

 COMMENTS ON THE DRAFT REPORT


We received written comments from the Assistant Secretary for Health, the American
Medical Association, the Pharmaceutical Manufacturers Association, the Accreditation
Council for Continuing Medical Education, and Public Citizen Health Research
Group. The full texts of these comments are in Appendix E. We also received notice
of concurrence with no elaboration from the Assistant Secretary for Planning and
Evaluation.

Assistant Secretary for Health

The Public Health Service concurred with the recommendations of our report. They
were, however, concerned about our presentation of the value of offers made to
physicians. They cited the positive skew in the distribution of values and suggested we
address inconsistencies between the mean and median values. They noted that our
discussion of potential bias did not include recall bias which they thought would tend
to cause underreporting. They felt that our presentation of bias was not given
adequate emphasis by virtue of its placement in a methodological appendix and
suggested discussion in the text of these issues. They also had several technical
comments.

We have changed our presentation of the value of           to consistently reject the median
values as opposed to mean, thus conservatively estimating the “average” value of the
offers. We added information about the potential bias of short term recall and made
clear our             about the overall bias direction. We included a brief summary of
this information in the introduction to highlight its importance. We have addressed the
other technical comments.

American Medical Association

The American Medical Association cited the importance of our study and had
favorable comments about it. They also cited their continuing effort to clarify and
make more specific their guidelines on gifts from industry to physicians. The AMA
also noted the positive effects their guidelines have had on the ethical promotion of
prescription drugs.

We welcome the American Medical Association3              in continuing to          and make
more specific their guidelines. We are particularly encouraged that the AMA has decided
to address the complex ethical issues of physicians’ acceptance of fees for participation in
market research focus groups and clinical research and their acceptance of
pharmaceutical samples for personal use. We hope that the            guidelines have had
the effects the AMA claims.




                                             10

Pharmaceutical Manufacturers Association

The Pharmaceuricai Manufacturers Association recommended that the final report not
be published, citing methodological flaws and problems with the reporting of the
results and conclusions. The PMA asked that we not use the results of our survey to
draw conclusions about the effectiveness of their ethical guidelines. In particular, they
felt that the timing of our survey made it impossible to measure the effectiveness of
their guidelines. They also expressed concerns about the biasing effects of a response
rate of 62 percent, though they did not speculate on the potential direction of the bias.
They stated that our presentation interprets all payments and gifts as promotional.
Finally, they felt that our presentation of the value of the gifts and payments offered
was misrepresentative because of a positive skew in the distribution.

 We do not agree that there are significant methodological         or problems with our
presentation. Our survey was not intended to measure the                   of the ethical
guidelines produced by the          and agreed upon by the          Because of concerns
raised by us in our earlier report entitled             Drug Promotion Involving Payments
and Gifts,” we felt there was a significant lack of              available about how
frequently or commonly physicians were offered any kind of payment or          from
pharmaceutical companies. As our purpose states, we conducted this survey to estimate
the extent to which physicians are          gifts and payments from pharmaceutical
companies. We do not draw conclusions or speculate on the timing of the offers, but do
point out the          implications of our findings if the offers were extended prior to or
after the promulgation of the guidelines.

We are convinced that the response rate we attained allows us to state our findings with
sufficient precision. While we have no way of explicitly measuring nonrespondent bias, we
think that nonrespondents would be even more likely to have been           payments and
gifts. Comments          the Public Health Service and Public Citizen Health Research
Group support this position. We have made a more conclusive statement about this and
other potential biases in the introduction to the report.

 We agree with        that not all consulting arrangements or payments for research activity
 are necessarily inappropriate or even promoh’onal in intent. Certain& manufacturers
 must involve physicians in legitimate clinical research and other decisions and should
 compensate them for this time. Since, however, the potential          for any type of
financial       to be used inappropriately to influence prescribing decisions, we felt it was
important to profile all types of payments and gifts. We did not make any statement
implying that all payments are inappropriate and certainly would not make that argument.

We agree with           comments about our presentation of the values of the           We
have changed our presentation of the value of         to consistently reflect the median
values, thus conservatively estimating the “average” value of the offers.




                                             11

Accreditation Council for Continuing Medical Education

The ACCME made supportive comments.

Public Citizen Health Research Group

The Public Citizen Health Research Group (PCHRG) supported our findings.
However, because they felt our findings demonstrated that the              guidelines
have failed, they suggested that we recommend legislation banning gifts and payments
extended for promotional purposes. They felt that our findings demonstrate that
inappropriate offers have been made since the promulgation of the guidelines.

 On the basis of the findings of this study, we cannot make definitive statements about the
              of the              guidelines. We certainly agree that there is a possibility
that inappropriate         were extended after the promulgation of the guidelines, and in
fact discuss the implications of that possibility in our conclusion. However, we must
emphasize that our purpose in                 this      was not to measure the effectiveness
of the guidelines, but to estimate to what extent physicians are offered gifts and payments
from pharmaceutical companies.             the guidelines were developed in the midst of the
study period only serves to underscore the importance of these issues. Because we cannot
draw conclusions about the effectiveness of the guidelines, we have not incorporated
           suggestion to recommend new legislation.




                                             12

            APPENDIX A


  GUIDELINE!3 OF   AMERICAN MEDICAL ASSOCIATION AND

THE PHARMACEUTICAL                ASSOCIATION





                     A - l
        Report a6 filed by the House of Delegate6 on December     1990


                             American Medical Association

             REPORT OF THE COUNCIL ON ETHICAL AND JUDICIAL AFFAIRS


                                                             Report: F
                                                             (X-90)

     Subject:	       Opinion of the Council on Ethical     Judicial
                     Affairs--Gifts to Physician6 from Industry

     Presented by:   Richard J.          MD, Chairman

     Referred to:	   Reference Committee on Amendment6 to
                     Constitution and Bylaw6
                     (David B. Carmichael, Jr.,



1          The Council on Ethical and Judicial Affair6 submits the
2    following opinion to the Rouse of Delegate6 for it6 information and
3    recommends that        report be filed.
4
5         GIFTS TO PHYSICIANS FROM INDUSTRY. Many gifts given to
6    physicians by companies in the pharmaceutical, device and medical
7    equipment industries        an important and socially beneficial
     function. For example, companies have long provided fund6 for
 9   educational seminars and conferences.            there ha6 been
10   growing concern about certain gifts from industry to physicians.
11   Some gifts that reflect customary practices of industry may not be
12   consistent with principles of medical ethics. To avoid the
13   acceptance of inappropriate gifts, physicians should          the
14   following guidelines:
15
16         1. Any gift6 accepted by physicians individually should
17   primarily entail a benefit to patient6 and should not be of
18   substantial value. Accordingly, textbooks, modest meals and other
19   gift6 are appropriate if they        a genuine educational
20   function. Cash payments should not be accepted.
21
22         2. Individual gifts of minimal value are permissible a6 long
23   a6 the gift6 are related to the physician’s work (e.g., pen6 and
24   notepad6
25
          3. Subsidies to underwrite the costs of continuing medical
27   education conferences or professional meetings can contribute to
28   the improvement of patient care and therefrre are
29   Since the giving of a subsidy directly to a physician by a
30   company’6 sales representative may create a relationship which
31   could influence the use of the company’6 products, any subsidy
32   should be accepted by the conference’6 sponsor who in turn can use
33   the money to reduce the conference’s registration fee. Payment6 to
34   defray the costs of a conference should not be accepted directly
35   from the company by the physicians attending the conference.
                Rep. F - page 2


     1              4.                  from                not be accepted to pay for
     2    the cost8 of travel,                    or other                    of
     3                       attending                or meetings, nor
     4    be accepted to compensate for the                                            for
     5    hospitality                   not be accepted outside of                 or
     6                 event8 held a8 a part of a conference or meeting.         I t
          appropriate for faculty at conference6 or meeting6 to accept
      8   reasonable honoraria and to accept reimbursement for reasonable
      9   travel, lodging and                 expenses. It    also appropriate for
    10                        who provide genuine services to receive reasonable
    11    compensation and to accept reimbursement for                         travel,
    12    l o d g i n g a n d m e a l expenses. Token              or advisory
    13    arrangement6 cannot be used to justify                          physicians
    14    their time or their travel,                   and other out-oE-pocket
    15    expenses.
    16
    17               5. Scholarship or other special funds to permit medical
    18    students, r e s i d e n t s a n d         to attend carefully selected
    19    e d u c a t i o n a l conference8 may be permissible a 6 l o n g a 8 t h e selection
    20    of students, residents or fellows who will receive the
    21    made by the academic or training institution.
    22
    23          6. N o g i f t s             be accepted         there are
    24    attached.   For example, physician6                      not accept  if they
    25    are given in relation to the physician’s prescribing practices.
     26   addition, when                     underwrite medical conference8 or
     27   other thon their own, responsibility f o r a n d control over the
     28              o f c o n t e n t , f a c u l t y , educational method8  material8
     29   should *belong to the organizer8 of the conference6 or




.                        . .
                              APPENDIX B


                                 METHODOLOGY


Sample selection

We surveyed a total of 997 physicians nationally. The physicians were identified from
a data base of Medicare billing physicians (one percent BMAD file). This file
identifies physicians not by name, but by Medicare provider number. The provider
numbers must be linked to name and address by Medicare carriers. In order to limit
the number of carriers we had to contact for names and addresses, we selected eight
carriers and then drew a random sample of 125 physicians for each carrier. The
carriers were selected with probability of selection equal to the number of provider
numbers in the data base for the carrier divided by the total number of provider
numbers in the data base nationally.

The carriers selected were:

      Equitable of North Carolina

      Aetna of Hawaii

      Florida Blue Shield

      Aetna of Oklahoma

      Aetna Georgia

      Michigan Blue Shield

      Texas Blue Shield

      Occidental California


We then randomly selected 125 provider numbers for each of the carriers. Each
carrier was sent the provider numbers and asked to return the names and addresses of
the physicians who used them. The carriers were able to identify all but three
physicians, resulting in our surveying 997 physicians.

      methods

We sent each physician a survey and cover letter on September 25, 1991, asking them
to return the survey by October 7, 1991. We mailed a             letter and another
copy of the survey to the physicians who had not returned it by October 15, 1991,
asking them to return it by October 21, 1991. We cut off receipt of the surveys on
November 29, 1991. Several surveys were received after this date and were not
included in the analysis.




                                        B-l
survey

We asked physicians        of 91 closed ended questions and then requested
additional comments. Seven questions -- concerning whether the sampling provisions
of the Prescription Drug Marketing Act of 1987 were being followed -- related to
another study. See appendix D for a copy of the survey instrument.



We received usable responses from 617 or 62 percent of the physicians we sampled.
Of the 38 percent who did not respond, 78, or 21 percent, were returned to us
because they were undeliverable or the physician no longer practiced or was deceased.
Table 2 details various characteristics of the physicians responding to the survey.

                                          Table 2

                                  Profile of Respondents


 Average number of years in practice                                          22
 Percent of respondents participating in research                             14%
         Average percent time working on research                             10%
            Average, percent of research funded by pharmaceutical companies   22%
 Percent of respondents who see patients in a hospital                        84%
         Average percent time working in hospitals                            37%
         Percent most often working in an academic medical center             8%
         Percent most often
                        --- working in a community teaching hospital          30%
         Percent most often working in a community nonteaching hospital       62%
 Percent of respondents who see patients in private practice                  92%
         Percent in a group practice                                          42%
 Percent of respondents who are salaried employees of an HMO                  3%
 Average number of patients seen per week                                     87
 Average number of prescriptions written per week                             79

Potential

There are three sources of potential bias in our sample: (1) The sample we drew
could be biased, (2) the respondents could differ systematically from the
nonrespondents, and (3) the respondents could have not answered questions truthfully
or correctly.


                                          B-2
Our sample was drawn as a random sample of physicians in the Medicare provider
data base.                    representative of all physicians nationally. First,
physicians in                        as pediatrics and obstetrics, rarely treat Medicare
patients. Physicians who treat Medicare patients may be more or less likely than
physicians who do not treat Medicare patients to have interactions with
pharmaceutical companies. Second, our sample may not represent the Medicare
population accurately. Our method of sampling could have drawn physicians more or
less likely to have interactions with pharmaceutical companies. As an attempt to
measure this potential bias, we compared the specialty mix in our sample with the
specialty mix nationally and found no obvious problems. Because we did not
analyze sample bias, we cannot make a              as to the direction or size of the bias.

We looked at nonrespondent bias carefully. It seems that the potential for
response was high with this survey. Some physicians who responded had very negative
reactions to our survey. Physicians who had had interactions with pharmaceutical
companies, particularly those who were unsure about the ethics and legality of those
interactions, were probably less likely to respond to our voluntary survey. However, it
is quite difficult to measure this potential bias. There is no information that we know
about nonrespondents that obviously correlates with interactions with pharmaceutical
companies. The only proxy we have is specialty of the physician. We compared the
response rates for each specialty and found that overall, response rates are distributed
across specialties as they are expected to be (see Table 2). A chi-square test was done
to test whether the response rates were equal across specialties resulting in a statistic
of 18.45 with 11 degrees of freedom (no significant difference at      level of
                           we cannot judge the strength of the bias, we expect
respondent bias to cause our estimates of the level and size of      to be low.

We also looked at the potential bias of false, incomplete, or misunderstood answering
of the questions in our survey. As noted above, some physicians were very negative
about the survey and its implications, perceiving it as an attempt to elicit damaging
information. In fact, prior to our survey being released, a lawyer was quoted in a
national newsletter advising physicians to seek the advice of counsel before filling out
the          If, despite our best efforts to assure the physicians that all
correspondence was strictly confidential, a respondent suspected that we were seeking
to catch physicians involved in illegal activity, the person would be unlikely to inform
us about an activity he or she considered marginally acceptable. There is, of course,
no way to measure bias of this sort. But, given the relatively few very negative
comments from physicians, we are inclined to believe this type of bias was minimal
(see Table 3).

There is also the potential for underreporting because of recall bias. We asked
physicians to recall events up to 12 months prior to the survey date. Physicians are
probably more likely to recall their latest experiences than earlier ones. However, if a
physician has been offered one or two payments or gifts that stood out as particularly
interesting or inappropriate, they could recall them as having occurred within the past
12 months, even if they were extended more than 12 months prior. We conclude that


                                          B-3
bias      avoidance of reporting inappropriate activities causes slight underreporting of
      Bias caused by          recall likely causes stronger underreporting, but
balanced                           by extended

Overall, the effects of bias are not precisely known, but we believe they cause the
information on number and value of offers to be underreported.

Data

We analyzed the survey responses by inputting them into a dBASE III (Ashton-Tate
Corporation) data base, converting that data base to a PC-SAS data base, and using a
variety of PC-SAS




                                           B-4

                                                       TABLE 2
                                    .           of Physicians Selected for Inclusion

Specialty                               Number in     Percent of Total    Number of     Percent of Total
                                        Selected      Selected Sample     Respondents   Respondents
                                        Sample
Internal Medicine                       175           17.5                85            14.1
Family Practice                         112           11.2                82            13.6
General Practice                        97            9.7                 30            5.0
General Surgery                         58            5.8                 33            5.5
Radiology                           i 52              5.2                 26            4.3
Orthopedic Surgery                      49            4.9                 28            4.6
Cardiovascular Diseases                 47            4.7                 20            3.3
Ophthalmology                           45            4.5                 34            5.6
Anesthesiology                      r44               4.4                 27            4.5

                                    I 35            I 3.5                123            3.8
Optometry                               34           3.4                  23            3.8
Podiatry                                30           3.0                  17            2.8
Other                                   222          22.2                 175           28.4
                                        27           27                   18
            chiropractic                2.5          25                   12            20
                                        25           25                                 25
                                        21           21                   18            3.0
                                        19           1.9                  12            20
                                        14           I.4                  11            1.8
                         Diseases       13           1.3                  8             1.3
                                        12                                9             1.5
            EENT


            Neurological Surgery




            oral




            Physical Medicine
            Pediatrics




                                                               B-5

        Pain Management




        Nuclear
              Monitoring   0       0              I               0.2
                           0      0               I               0.2
        Colon/Rectal       0      0               I               0.2


Note: Specialties of physicians sampled were determined by the BMAD coding;
specialties of physicians responding were self-reported by the physicians. It is possible
a physician’s specialty was more specific or general in the BMAD coding than in his or
her own coding. It is also possible that the BMAD coding is several years old and the
physician has shifted subspecialties.

Source: BMAD files and OIG Survey of Physicians’ Interactions with Pharmaceutical
Companies, Fall 1991.




                                         B-6

                                      TABLE 3


                          Comments of Responding Physicians


 Paraphrased Comments                               Number of      Percent of
                                                    Respondents    Respondents
                                                    Making         Making
                                                    Comment        Comment
 All dealings with pharmaceutical companies have    49             8%
 been ethical and positive/Nobody has bribed me/
 This is not a problem here
 I have little or no contact with pharmaceutical    38             6%
 companies       -
 I refuse all or most offers                        17             3%
 Offers have no influence                           16             3%
 This survey is a waste of time and/or money/The    15             2%
 problem is blown out of proportion
 Drug companies do excessive things and/or should   9              1%
 be controlled more
 Things have changed in the last few years/The      7              1%
 industry polices itself
 This is a witch hunt                               5              1%
 Congress and other industries are just as much     5              1%
 into this and should be investigated
 I wish I were offered these things                 5              1%
 Drugs cost too much money                          5              1%

Source: Comments from respondents to OIG Survey of Physicians’ Interactions with
Pharmaceutical Companies, Fall 1991.




                                         B-7

                                 A.P_ P E N D I X C

    PHARMACEUTICAL COMPANIES OFFERS OF                                     AND PAYMENTS
                        BY SPECIALTY

                     SPECIALTIES WITH TEN OR MORE RESPONDENTS
                        -
 Specialty                                   Number of      Percent offered at
                                             physicians     least one gift or
                                                            payment
 Neurology                                   11             100%
 Internal Medicine                           85             99%
 Family Practice      --.                    82             %%
 Dermatology                                 18             94%
 Urology                                     18             94%
 Psychiatry                                  15             93%
 Oncology                                    11             91%
 Orthopedic Surgery                                         89%
 Cardiovascular Disease                      19             89%
 General Surgery                             33             88%
 General Practice                            30             87%
                                             16             87%
 Podiatry                                    17             82%
 Anesthesiology                              27             78%
 Ophthalmology                               34             56%
 Optometry                                   23             39%
 Radiology                                   26             35%
 Pathology                                   12             17%
 Chiropractic                                12             0%
                        SPECIALTIES WITH LESS THAN 10 RESPONDENTS
 Level of prescribing                                 Number of               Percent offered at
                                                      physicians              least one gift or
                                                                              payment
 Low (Less than 10 prescriptions written per week)    14                      71%
 Medium (Between 10 and 49 prescriptions written      29                      93%
 per week)
 High (At least   prescriptions written per week)     43                      95%

Source: OIG Survey of Physicians’ Interactions with Pharmaceutical Companies, Fall 1991.




                                               C-l
APPENDIX D


  QUESTIONNAIRE





      D-l
                                      OF PHYSICIANS REGARDING
                                       PHARMACEUTICAL

All of your answers are                  confidential and will be used only for the purposes
of this study.

We are interested in hearing about your responses to this survey. Please call 800-
551-5154 to discuss specific promotions or to ask questions about the survey.




BACKGROUND

    What is your primary specialty?


B2. In what year did you receive your medical degree?


B3. Do you participate in research?                                                     Y N


        If YES,


              What percentage of your working time do you do research?             %


             What percentage of your research is funded by pharmaceutical companies?      %


B4. Do you see patients in a hospital?                                                  Y N

        If YES,

              What percentage of your working time do you spend working in hospitals?

             What kind of hospital do you most often work in?
               1. Academic medical center
              2. Community teaching hospital
              3. Community non-teaching hospital

B5. Do you see patients in private practice?                                            Y N

             If YES, is it a group practice?                                            Y N

B6. Are you a salaried employee of an HMO?                                              Y N

B7. How many patients do you see per week?

B8. How many prescriptions for drugs do you write per week?




                                                 D-2

Promotion
         Please indicate which of the following have been offered to you by pharmaceutical companies
         in the last 12 months and, if the offer has been extended, answer the questions in columns B
         and C.

                                                A.             B.              C.               D.
OFFER                                     Was this        On how          What was        How many
                                          offered to      many            the total       offers, as a
                                          you in the      occasions       approxi-        condition for
                                          last 12         was this        mate value      receiving
                                          months?         offered to      of these        them, re­
                                                          you?            offers?         quired you to
                                                                                          prescribe a
                                                                                          manufact­
                                                                                          urer’s drug?

    Small gifts (i.e. pens,               YES NO
prescription pads, etc.)

P2. Meals or drinks                      YES NO

P3. Entertainment or sporting event      YES NO
tickets

P4. Medical texts                        YES NO

P5. Medical equipment                    YES NO

P6.        equipment                     YES NO

P7. Pharmaceutical samples for           YES NO
personal/family use

P8. Other items for personal/family      YES NO
use




P9. Gifts of money                       YES NO




                                                D-3

Research and Information Gathering Activities
        Please indicate which of the following have been offered to you by pharmaceutical companies
        in the last 12 months and, if the offer has been extended, answer the questions in columns B,
        C, and D.

OFFER                                         A.              B.                               D.
                                         Was this        On how           What is the    For how
                                         offered to      many             approxi­       many of
                                         you in the      occasions        mate value     these offers
                                             12          was this         of the         was your
                                         months?         offered to       offers?        compensation
                                                         you?                            dependent on
                                                                                         the number
                                                                                         of
                                                                                         prescriptions
                                                                                         you wrote?

    Compensation for supervising or      YES NO

conducting clinical trials on
experimental drugs not yet approved
by FDA

STUDIES ON FDA-APPROVED DRUGS


R2. Compensation for conducting                N O
studies which required recording
demographic information, but did
not require recording clinical
information

R3. Compensation for conducting          YES NO
studies which required recording
clinical information

R4. Compensation for conducting          YES NO
studies (including those in R2. and
     which required prescribing the
drug being studied to people who
were not previously taking it.



     Compensation for participating      YES NO                           sp             -
in focus group sessions




                                                D-4
Educational Programs
        Please indicate which of the following have been offered to you by pharmaceutical companies
        in the last 12 months and, if the offer has been extended, answer the questions in columns B,
        C, and D.

                                              A.              B.               C.                D.
OFFER                                    Was this        On how           What was         How many
                                         offered to      many             the              of these
                                         you in the      occasions        approxi-         programs
                                             12          was this         mate value       offered
                                         months?         offered to       of the           continuing
                                                         you?             offers?          medical
                                                                                           education
                                                                                           credits for
                                                                                           those who
                                                                                           attend?

El. Travel and/or accommodation          YES NO
expenses for you to go to out of
town programs at which you were
not a presenter    sires)




E2. Travel and/or accommodation          YES NO
expenses for a spouse or companion
to accompany you to educational
programs at which you were not a
presenter




E3. Cash honoraria for attending         YES NO
educational programs at which you
were not a presenter (regardless of
location)

E4. Other gifts, tickets and             YES NO
hospitality for attending educational
programs at which you were not a
presenter (regardless of location)

    Travel/accommodation expenses        YES NO
and/or honoraria for making
presentations at educational
programs
Pharmaceutical      ampk?
        Below WC                            samples you have received in the last twelve months.
        Please indicate whether or not you have received samples. If you have, please indicate whether

        or not you have been required to request these samples in writing and confirm their receipt.


                                                    A.                                   B.
                                      Within the last 12 months,           On how many of these
                                      on how many occasions do             occasions do you recall
                                      you recall having received           having signed written
                                      samples?                             requests/ written
                                                                           confirmations of        for
                                                                           these samples?

    Samples obtained at
professional meetings

S2. Samples delivered to your
office by a company’s
representative


S3. Samples delivered to your                                              requests            receipts
home or       by mail/common
carrier



Additional Comments

       Thank you for completing our survey. If you have any additional comments you would like to
       make or there were other offers that were not covered in our brief survey that you would like
       to inform us of, please do so here. Remember: To tell us your feeling about offers from
       pharmaceutical                  to discus specific offers, or to ask questions about the survey,
       please     (800) 551-5154.

Comments:




                                                D-6

                           APPENDIX E


              DETAILED       COMMENTS ON THE                 REPORT



In this appendix, we present in full the comments on the draft report offered by the
Assistant Secretary for Health, the American Medical Association, the Pharmaceutical
Manufacturers Association, the Accreditation Council for Continuing Medical
Education, and the Public Citizen Health Research Group.




                                       E-l
           DEPARTMENT OF HEALTH   HUMAN                          Public   Service



                                                                 Memorandum


from        Assistant Secretary for Health


Subject	    Office of Inspector General      Draft Report “Promotion of
            Prescription Drugs Through Payments and Gifts:  Physicians’
            Perspectives     OEI-01-90-00481
To
            Inspector General, OS


            Attached are the PHS comments on the subject OIG draft report.
            We concur with the report’s recommendation to PHS. Our
            comments outline the actions being taken to implement it.



                                          m   Mason, M.D., Dr.P.H.

            Attachment
      PUBLIC        SERVICE        COMMENTS ON THE OFFICE OF
        INSPECTOR GENERAL        DRAFT REPORT "PROMOTION OF
                              THROUGH PAYMENTS AND GIFTS:
                      ' PERSPECTIVES,"   OEI-01-90-00481

 OIG Recommendation
The Public Health Service (PHS), through the Food and Drug
Administration (FDA), should finalize guidelines defining what
it considers promotional activity and what it considers
scientific interchange.
PHS Comment
We concur. The PHS agrees that the FDA should provide guidance
to pharmaceutical companies on the distinction drawn by the FDA
between promotional activities and independent scientific
exchange.
The FDA's Center for Drug Evaluation and Research's (CDER)
Division of Drug Marketing, Advertising, and Communications,
began this process in October 1991. At that time, the CDER
issued in draft a paper entitled "Drug Company Supported
Activities in Scientific or Educational Contexts: A
Concept Paper." The paper addresses the FDA's regulation of
promotional activities that occur in scientific or educational
settings.
The CDER requested and received comments on the draft paper
from the pharmaceutical industry, medical community, other
government agencies, and the general public. The comments have
been evaluated and the concept paper has been presented to the
Deputy Commissioner for Policy. The FDA's Deputy Commissioner
for Policy is continuing the process of developing a policy
guidance document in consultation with the Office of the
Assistant Secretary for Health, We expect that the policy
guidance will be finalized and published in Fiscal Year 1993.
Technical Comments
Paqe 3, Second Bullet, First           and Paqe 4, Table
"Offers from Pharmaceutical Companies to
We noted the inconsistencies between the means and the median
scores, on many of the measures reported on pages 3 and 4. In
order to improve the clarity of the report, we suggest that the
OIG address these inconsistencies and also discuss the
potential significance of the positive skew in the
distribution.
Letter to Richard P.
Page 2



expenses to physician6 to attend speakers' training programs or to students,
residents and fellows to attend educational conferences. In view of the
frequency with which physicians were offered pharmaceutical samples for
personal use, we will address the propriety of that gift as well.

We welcome the opportunity to continue working with you in addressing the
concerns raised by gifts from industry to physicians.




     S. Todd, MD
 American Medical Association
 Physicians dedicated   the     of America


 James S. Todd, MD            515      state street   312
 Executive Vice President                    60610


 June 4, 1992


Richard P. Kusserow
Inspector General
Department of Health    Human Services
330 Independence Avenue, SW, Room 5250
Washington, DC 20201

      Re:	     Promotion of Prescription Drugs Through Payments and Gifts:
               Physicians’ Perspectives

Dear Mr. Kusserow:

Thank you for the opportunity to comment on                            draft report of the Office of
Inspector General.

The OIG study of gifts to physicians from the pharmaceutical industry is a
very important one. There are still inadequate data on the gift-giving
practices of industry.

Overall, we are encouraged by the survey results. For the m o s t part, industry
and the profession appear to be complying with the American Medical
Association’s guidelines on gifts from industry. For example, only 1% of
physicians reported offers of gifts of money ; only 6% of physician6 reported
o f f e r s o f e n t e r t a i n m e n t o r S p o r t i n g e v e n t t i c k e t s . In addition, the data
reported would tend to underestimate the degree of compliance. The period
covered by the study began before the guidelines were issued, and there was a
transition period of several months before the guidelines were fully in
e f f e c t . We believe that the joint efforts of the                                   and the Pharmaceutical
Manufacturers Association provide an excellent model of self-regulation.

We agree that the guidelines do not always give specific enough guidance.
Consequently, in October 1991, we issued a several-page document with
clarifications of the guidelines.          interpretive document provides answers
to more than thirty common questions about the guidelines. The interpretive
process is on-going; we plan to issue clarifications on several other
questions in the coming months, including the ones mentioned in your draft        *
report.   In particular, clarifications will be issued on when compensation is
appropriate for participation in a market focus group or in clinical trials.
We will also indicate more specifically when it is permissible to pay travel
                                                                     2


 Paqe 5,        om   - --r - -   -
                                     in Appendix C
The OIG draft report makes reference to the "gifts by

specialty" breakouts.       of the high percentages appear

questionable because they are based on one or two individuals

in each category. To mitigate this problem, the OIG should

determine whether there are data that would allow the

specialties to be combined as a function of frequency of

prescribing. We believe a combined table would make a better

presentation.

Paqe 9, First Paraqraph, Second Sentence

We believe the phrase, "prior to the guidelines' development,"

should be changed to "prior to the guidelines' promulgation."

This would clarify that the offers under question took place,

before or after the issuance of the guidelines and not during

the development of the guidelines.

Appendix        Paqe B-2, Paraqraph Under "Profile of Respondents"
The percentage reported as undeliverable (or ineligible) in the
original sample is misleading. The sentence states "Of the 38
percent who did not respond . . ..B percent, were returned as
....    In fact, the number represents   percent of the total;
21 percent of the 380 non-responses.
                Pase B-2, Paraqraph Under "Potential Biases"

We believe the OIG should address that these data are subject

to a recall bias that would overemphasize the physicians' most

recent experiences and underemphasize their experiences in the

early part of the period covered. Accurate recall of events

drops precipitously after 2 weeks. Therefore, the physicians

were probably more likely to recall their latest experiences

with pharmaceutical company offers, which took place subsequent

to dissemination of the quidelines. This is a factor which

would be likely to bias the data in favor of underreporting

both the number and value of any offers made.

           B,
Although there is a brief discussion of potentially biasing

factors in the methodology appendix, we are concerned that most

of the readers of these reports would not read the appendices

and the discussion may be lost. We believe that it would be

worthwhile to discuss in the text of the report the likelihood

that offers were underreported because those who received the

most (and/or most valuable) offers were likely to be

overrepresented in the non-respondent category. The specialty

breakout offered does not address this more general issue.

    c. May contributions to a professional society’s general fund be accepted
    from industry?

         The                              to deal with gift6 from    industry which
         a f f e c t , or could appear to affect, the judgment of   individual
         practicing physicians. In general, a professional          society
         make its own judgment about gift6 from industry to         the society
         itself.

    d.	 When companies invite physician6 to a dinner with a                 what are
    the relevant guidelines?

         F i r s t , the dinner must be a        meal. Second, the guideline does
         allow gift6 that primarily benefit patients and that are not of
         substantial value. Accordingly, textbook6 and other gift6 that
         primarily benefit patient care and that have a value to the physician
         in the general            of $100 are permissible.

    e. May physicians accept	 vouchers that reimburse them for uncompensated
    care they have provided?

         No.   Such a voucher would result directly in increased income for the I ’


    f . May physicians accumulate “points” by attending several educational or
    promotional meetings and then choose a gift from a catalogue of
                options?

              guideline permits gifts only if they are not of
         value.   If accumulation of points would result in physicians
         receiving a substantial gift by combining insubstantial gifts over a
         relativeiy short period of time, it would be inappropriate.

                       accept gift certificates for educational materials
    attending promotional or educational events?

        The Council views gift certificates as a grey area which is not
           prohibited by the guidelines. Medical text book6 are explicitly
        approved as gifts under the guidelines. A g i f t c e r t i f i c a t e f o r
        educational materials, i.e., for the selection by the physician fror
        an exclusively medical text book catalogue, would not seem to be
        materially different. The issue is whether the gift certificate
        gives the recipient such control as to make the                         similar
        to cash. As              table donations, pre-selection by the sponsor
        removes any quest ion. I t i s up to the individual physician to
        the f              .

                         gifts of minimal value are permissible as long as
gifts are related to the physician’s      (e.g., pens and notepads).

              Subsidies tc underwrite the costs of continuing medical
education conferences or professional meetings can contribute to the
improvement of                             are permissible. Since the giving
American Medical
           the health




       Annotated Guidelines on Gifts to Physicians from Industry


                  Council on Ethical and Judicial Affair6

                       American Medical Association

                             Chicago, Illinois



                               Final Version
                          Issued October 9, 1991
k. May continuing medical education conference6 be held in the Bahamas,
Europe or South America?

     There arc no              on the location of conferences as long as
     the attendee6 are paying their own travel

1.   May travel expenses be accepted by physicians who are being trained as
         or faculty for educational conference6 and meetings?

     In general, no. If a physician is presenting a6 an independent expert
     at a     event both the training and it6 reimbursement raise questions
     about independence. In addition, the training is a gift because the
                 role is generally more analogous to that of an attendee
     than a participant . Speaker training            can be distinguished
     from meetings (See      with leading researchers, sponsored by a
     company, designed primarily for an exchange of information about
     important development6 or treatments, including the            own
     research, for which reimbursement for travel may be appropriate.

m. What kinds of social event6 during conference6 and meetings may be
subsidized by industry?

     Social events           satisfy three criteria. F i r s t , the value of the
     event to the physician should be             Second, the event should
     facilitate discussion among attendee6 and/or discussion between
     attendees and faculty. Third, the educational part of             conference
     should           for a substantial majority of the total time accounted
     for by the educational activities and social event6 together. Events
     that would be viewed (as in the succeeding question) as lavish or
     expensive should be avoided. But modest social activities that are
     not elaborate or unusual are permissible, e.g., inexpensive boat
     rides, barbecues, entertainment that draw6 on the local performers.
     In general, any such events which are a part of the conference program
     should be open to all registrants.

n. May a company rent an ‘expensive entertainment complex for an evening
during a medical conference and invite the physicians attending the
conference?

     NO.   The guidelines permit only modest hospitality.

o. If            attending a conference engage in interactive exchange,
    their travel expenses be paid by industry?

     NO.           interactive exchange would not constitute genuine consulting
           ces .

     If a company schedules a conference and provides meals for the
attendees that fall within the guidelines, may the company also pay the
costs of the meals for spouses?

     If a meal falls within the guidelines, then the physician’s spouse ma!
     be included.
of a subsidy directly   to a physician by a company’s sales representative may
create a relationship   which could influence the use of the company’s products,
any subsidy should       accepted by the conference’s sponsor who in turn can use
the money to                            registration fee. Payments to defray the
costs of a conference   should not be accepted directly from the company by the
physicians attending    the conference.

    a. Are conference subsidies from the educational division of 	a company
    covered by the guidelines?

         Yes. When the Council says “any subsidy,” it would not matter
         whether the subsidy comes from the sales division, the educational
         division or some other section of the company.

    b . 	 May a company or its intermediary send physicians a check or voucher
    to offset the registration fee at a specific conference or a conference of
    the physician’s choice?

         Physicians should not directly accept checks or certificates which
         would be used to offset registration fees. The gift of a reduced
         registration should be made across the board and through the
         accredited sponsor.

    deline.    Subsidies from industry should not be accepted directly or
indirectly to pay for the costs of travel, lodging or other           expenses
of physicians attending conferences or meetings , nor should subsidies be
accepted to              for the physicians’ time. Subsidies for hospitality
should not be accepted outside of modest meals or social events held as a part
of a conference or meeting. It is appropriate for faculty a t conferences or
meetings to accept reasonable honoraria and to accept reimbursement for
reasonable travel, lodging and meal expenses. It is also appropriate for
consultants who provide genuine services to receive reasonable compensation
and to accept reimbursement for reasonable travel, lodging and meal expenses.
Token consulting or advisory arrangements cannot be used to justify
compensating physicians for        time or their travel, lodging and other
out-of-pocket expenses.

    a.	 If a company invites physicians to visit its facilities for a tour o r
    to become educated about one of its products, may the company pay travel
    expenses and honoraria? This question has come up in the context of a
    rehabilitation facility that wants physicians to know of its existence
    that they may refer their patients to the facility. It has also come up
    in the context of surgical device or equipment manufacturers who want
    physicians to become            with their products.

        In general, travel expenses should      be reimbursed, nor should
        honoraria be paid for the visiting physician’s time since the
        presentations are analogous to a pharmaceutical company’s educational
        or promotional meetings. The Council recognizes that medical device-c,
        equipment and other technologies may require, in some circumstances,
        special evaluation or training in proper usage which can not
f . May a company compensate physicians for their time and travel expenses
when they participate in focus groups?

    Yes. As       es the focus groups serve a genuine and exclusive
    research purpose and are not used for promotional purposes, physicians
    may be              for time and travel expenses. The number of
    physicians used in a particular focus group or in multiple focus
    groups should be an appropriate size to accomplish the research
    purpose, but no larger.

    Do the restrictions on travel, lodging and meals apply to educational
programs run by medical schools, professional societies or other
accredited organizations which are funded by industry, or do they apply
only to programs developed and run by industry?

    The restrictions apply to all conferences or meetings which are funded

    by industry. The Council drew no distinction on the basis of the

    organizer of the conference or meeting. The Council felt that the

    gift of travel expenses is too substantial even when the conference is

    run by a non-industry sponsor. (Industry includes all “proprietary

    health-related entities that might create a conflict of interest” as
    recommended by the American Academy of Family Physicians.)


h.	 May company funds be used for travel expenses and honoraria of bona
fide faculty at educational meetings?                                 �




    This           draws a distinction between attendees and faculty. As
    was state?.,      is appropriate for faculty at conferences or
    meetings to accept reasonable honoraria and to accept reimbursement
    for reasonable travel, lodging, and meal expenses.”

    Companies need to be mindful of the guidelines of the Accreditation
    Council on Continuing Medical Education. According to those
    guidelines,          from a commercial source should be in the form of
    an educational grant made payable to the CME sponsor for the support
    of programming.

i. May travel expenses be reimbursed for physicians presenting a poster
or a “free paper” at a scientific conference?

    Reimbursement may be accepted only by bona fide faculty. The
    presentation of a poster or a free paper does not by itself qualify
    person as a member of the conference faculty for purposes of these
    guidelines.

   When a professional association schedules a long-range planning
meeting, is it
             appropriate for              subsidize the travel expenses
of the meetingparticipants?

   The guidelines are designed to deal with gifts from             industry
   a f f e c t , or could appear to affect, the judgment of       individual
   practicing physicians. In general, a p r o f e s s i o n a l   society  shouid


   its           judgment about gifts from industry to the        society itseif.
     practicably be provided except on site. Medical specialties are in a
     better position to advise physicians regarding the appropriateness of
     reimbursement with regard to these trips. In cases where the company
     insists on such visits as a means of protection from liability for
     improper         physicians and their specialties should make the
     judgment. In no case would honoraria be appropriate and any travel
     expenses should be only those strictly necessary.

b.	 If the company invites physicians to visit its facilities for review
and comment on a product, to discuss their independent research projects
or to explore the potential for collaborative research, may the company
pay travel expenses and an honorarium?

     If the physician is providing genuine services, reasonable
     compensation for time and travel expenses can be given. However,
     token advisory or consulting arrangements cannot be used to justify
     compensation.

c. May a company hold a sweepstakes for physicians in which five entrants
receive a trip to the Virgin Islands or airfare to the medical meeting of
their choice?

     No.   The use of a sweepstakes or raffle to deliver a gift does not
     affect the permissibility of the gift.                 Since the sweepstakes is not
     open to the public, t h e g u i d e l i n e s a p p l y i n f u l l f o r c e .
                                                                                 �




d.   If a company convenes a group of physicians to recruit clinical
                      or convenes a group of clinical investigators for a meeting
t o d i s c u s s t h e i r r e s u l t s , may the company pay for their travel expenses?

     Expenses may be paid if the meetings serve a genuine research
     purpose. One guide to their propriety would be whether the
     conducts similar meetings when it sponsors multi-center clinical
     trials.        When travel subsidies are acceptable, the guidelines
     emphasize that they be used to pay only for “reasonable” expenses.
     The reasonableness of expenses would depend on a number of
     considerations.            F o r e x a m p l e , meetings are likely to be problematic if
     overseas locations are used for exclusively domestic
     I t w o u l d b e i n a p p r o p r i a t e t o p a y f o r r e c r e a t i o n or entertainment
     b e y o n d t h e k i n d o f m o d e s t h o s p i t a l i t y described in this guideline.

e.   How can’ a physician tell whether there is a “genuine research

        number of factors can be considered.                     Signs that a genuine
     purpose exists include the facts that there are (1) a valid stud)
     protocol,                  recruitment of physicians with appropriate
     q u a l i f i c a t i o n s o r e x p e r t i s e , and recruitment of an appropriate
     number of physicians                      light of the number of study participants
                     or statistic21 evaluation.
                                        - 7 - 




    9* May companies donate funds to sponsor a professional society’s charity
    golf tournament?

        Yes.   BUL  it is sensible if physicians who play in the tournament make
        some   contribution themselves to the event.

    r . If a company invites a group of consultants to a meeting and a
    consultant brings a spouse, may the company pay the costs of lodging or
    meals of the spouse? Does it matter if the meal is part of the program
    for the consultants?

        Since the costs of having a spouse share a hotel room or join a modest
        meal are nominal, it is permissible for the company to subsidize those
            ts. However, if t h e total subsidies become substantial, t h e n t h e y
        become unacceptable.

                Scholarship or other special funds to permit medical students,
residents and fellows to attend carefully selected educational conferences may
be permissible as long as the selection of students, residents or fellows who
will receive the funds is made by the academic        training institution.

    a. When a company subsidizes the travel expenses of residents to an
    appropriately selected conference, may the residents receive the subsidy
    directly from the company?
                                                                     �


        Funds for               or other special funds should be given to the
        academic department6 or the accredited sponsor of the conference. The
        disbursement of funds can then be made by the departments or the
        conference sponsor.

     lin- 6 . No gifts should be accepted if there are strings attached. For
example, physicians should not accept gifts if t h e y a r e given in relation to
the physician’s prescribing practices. In addition, when companies underwrite
medical conferences or lectures other than their own, responsibility for and
control over t h e selection of content, faculty, educational methods and
materials should belong to the organizers of the conferences or lectures.

    a. May companies s	 end their top prescribers, purchasers, or referrers on
    cruises?

        No. There can be no link between prescribing or referring patterns
        and gifts. In addition, travel expenses, including cruises, are not
        permissible.

    b.	 May the funding company            develop the complete educational
    program that is sponsored   an                 continuing medical
    sponsor?

        No. The funding company      finance the development of the program
        through its grant to the sponsor, but the accredited sponsor must
        responsibility and        over the content and faculty of
        c o n f e r e n c e s , m e e t i n g s , o r l e c t u r e s . Neither the funding company nor
        an independent consulting firm should develop the complete educational
        program for approval by the accredited sponsor.

    c. How much input may a funding company have in the development of a
    conference, m e e t i n g , or lectures?

        The guidelines of the Accreditation Council on Continuing Medical
        Education on commercial support of continuing medical education
        address this question.



    Any questions regarding the guidelines should be directed to the Council
in care of:

               Kirk B. Johnson, JD

               General Counsel

               American Medical Association

                     State
               Chicago, Illinois 60610
               FAX: 312-464-5846

                                                                             Pharmaceutical
                                                                              Manufacturers
                                                                             Association
                                                  April 17, 1992


The Honorable Richard P. Kusserow

Inspector
Department of Health and Human Services

Washington, D.C. 20201

Dear Richard:

           I appreciate the opportunity to provide the comments of

the Pharmaceutical Manufacturers Association (PMA) on the draft

report "Promotion of Prescription Drugs Through Payments and

Gifts: Physicians' Perspectives," Because we have many concerns

regarding this report, we were disappointed to see that this

draft has been quoted in the press. Because the survey is flawed

methodologically, reporting of the results and conclusions, even
tentative or speculative ones, are misleading and inappropriate.
    recommends that the report not be published. However, if the
Inspector General's Office is under obligation to publish this
report,      strongly recommends that the report clearly&state
that the data do not support any firm conclusions regarding the

status of pharmaceutical marketing and promotion activities. I

am enclosing more detailed comments on the draft report, but

      major concerns are summarized below.

          Briefly,       primary concerns relate to the

methodology employed for the survey. As noted in the report,
the time period selected for the survey began before industry
and AMA adoption of new guidelines regarding gifts to physicians
from industry. Even after adoption of the guidelines, there was
an acknowledged transition period and continuing interpretation
of the new guidelines. These additional factors are not recog­
nized in the conclusions drawn in the draft report. The response
rate to the survey, only 62 percent, raises significantly the
possibility of bias in the results, This potential for bias, and
the inability to measure this bias reinforce our recommendation
that conclusions not be drawn from the survey results.
                                                                                          �
           We are also concerned about the way in which results
are described and interpreted in the report. Research funding,
legitimate reimbursement for consulting services, and appropriate
payment of travel expenses to educational events for consultant
physicians are all described as gifts and payments--interpreted
as promotional activities and combined with usual and appropriate
gifts to physicians of pens, notepads and other reminder items.
Moreover, the average value of $727 for        and payments
reported is based on a highly skewed range of physician estimates
of questionable accuracy. Most items provided to physicians fall



                                           20005 �      2024353420    FAX:
                                                                     � 
   -   . . . . - --- . ______   . . . .   __ -    . .    ___
    below the        criterion of $100 for                 and
are of utility in the physician's daily practice.
            We believe, and we think   would agree, that the
guidelines adopted by industry are working well.      and
continue to work closely together to foster better understanding
of and adherence to these guidelines. We are also working
closely with FDA to ensure that their guidelines on
funded continuing medical education programs are reasonable and
appropriate. Representatives from both      and FDA spoke on
these topics at a PMA meeting last week attended by more than 100

senior marketing executives.

               feels that dissemination of this survey report
would not be productive because of the flaws in the methodology
and the lack of any basis for drawing conclusions from the survey
results. These results do not accurately reflect the current
state of practice in pharmaceutical marketing and promotion and
could only serve to reinforce old and invalid perceptions
regarding these very necessary and useful activities.
                                 Sincerely,            .





Enclosure

cc:   Kirk Johnson, American Medical Association
    Detailed Comments   on the Office
                                    of the Inspector General's
         Draft             Promotion of Prescription Drugs
                             Payments and Gifts

     The       report from the Office of the Inspector General on
pharmaceutical promotion through gifts and payments describes the
results of a mail survey of physicians, In this survey physi­
cians reported on instances in which gifts and payments were
offered by pharmaceutical firms during the 12 months beginning in
the fall of 1990. The responding physicians attempted to
estimate the value of each gift or offer.
     PMA finds serious flaws in the methodology for this survey
that cast doubt on the validity and utility of the results
obtained. We also believe that the way in which the results are
summarized and interpreted in the draft report lead to highly
Speculative               conclusions.       recommends that the
study not be released.  However,  if the report is released in
final form, the report should not offer any conclusions, even
speculative ones.        comments are detailed below.
Methodoloav

     The report acknowledges that the time period focused on in
the survey began before     and industry adoption of new guide-
lines on industry gifts to physicians. Consequently, it is
impossible from the survey results to assess      degree of com­
pliance with the guidelines. This is further complicated by the
fact that     acknowledged the need for a transition period after
adoption of the guidelines because many firms and physicians

already had contractual and financial commitments for activities

that would occur within a few months after the guidelines were

adopted. In addition, during the first several months,       was

in the process of developing more specific interpretations of the

guidelines and subsequently provided these interpretations to the

industry in July 1991.

     Mail surveys typically suffer from the problem of gaining an
         response rate. This survey is no exception. Only 62
acceptable
percent of surveyed physicians responded, thus exposing the re­
sults to the potential for substantial bias. It is not possible
to assess adequately the degree of bias, because as the report
states        is no information that we know about nonrespondents
that obviously correlates with interactions with pharmaceutical
companies." Any speculations regarding the direction of the bias
are just that, speculation.
     The survey questionnaire asked physicians to estimate the

value of offers and gifts that were received from pharmaceutical
companies. These valuations are unreliable, yot are reported and
analyzed in the survey report with unwarranted precision. The
figures provided by physicians represent a highly skewed set of
data, and yet the focus of the analysis is on            averages
that are                affected by a few large estimates from
physicians, some of which represented payments for conducting
clinical studies unrelated to marketing and promotion. For
example while the average value for gifts or payments is re-
ported as $727, the median value is only $125, just above the
      established criteria for "minimal           Placing
      intervals around such questionable averages is without any
statistical validity.
              of Results

     Marketing and promotion activities directed to physicians

are legitimate and necessary ways of bringing products to

physicians' attention and facilitating the use of those products.

         items such as pens, notepads, and other small gifts
serve to remind physicians of certain products, but physicians
still are responsible for understanding how to use products
appropriately. In addition, there are educational activities
that pharmaceutical firms undertake to increase physicians'
understanding regarding the use of products. Physicians
also sometimes asked to participate as consultant6 in marketing
research activities or in clinical studies that       outside the
realm of marketing and promotion. All of these items      acti­
vities are combined in the analysis of the survey results and
implicitly interpreted as gifts and payments provided by com­
panies in an effort to influence physician prescribing. The data
are presented and interpreted in a way that infers inappropriate
activities by pharmaceutical companies.
      Compensation to physicians for participation in clinical
studies should not be aggregated with other results from the
survey.   As noted above, these amounts are largely the reason
for the degree to which the combined results are unrepresenta­
tive of the skewed nature of the data collected. Similarly,
physicians are asked to and do participate in marketing research
activities such as focus groups and are often compensated for
their services.             of these figures in overall averages
also tends to skew the aggregate results from the survey.
      All of the interpretations in the report are tentative and
qualified in some way. In fact, the survey results provide no     *
clear evidence that any guidelines or regulations were exceeded
by any of the activities reported by physicians. The report
unfortunately speculates that such excesses may have occurred
without any basis for such speculation. PMA recommends that all
such speculations be eliminated and believes that the only firm
conclusion that may be drawn from this study is that the data are
not conclusive in any way.
                                                                                 *
                                                                                         Accreditation        for
                                                                                     Continuing Medical Education
                  P. 0. Box 245        51-B         Terrace                     IL          (708)            FAX (708)




                                                                                                    organizations

                                       individual physicians




American Board o/Medical Specialties                     Medical Association
                         Council of Medical Specialty
One Rotary Center.    805                         N. State St.
                                            Box 70

         IL 60201                             Chicago. IL 60610
                                      Lakt Forest, IL

                  Association                 Association for Hospital Medical Education
                        of       Medical Boards of   US.,   Inc.

    N                                              Connecticut           N.W.
                                                   707

        IL                                                 LX 20036
                                   Fort Worth.      76102


                                              Association of American Medical Colleges

                                              2450 N Street, N.W.

                                              Washington. DC 20037

DRAFT                                                                      DRAFT


  Accreditation Council for Continuing Medical Education

         STANDARDS FOR COMMERCIAL SUPPORT OF
           CONTINUING MEDICAL EDUCATION

PREAMBLE

The purpose of continuing medical education (CME) is to enhance the
physician’s ability to care for patients. It is the responsibility of the accredited
sponsor of a CME activity to assure that the activity is designed primarily for
that purpose.

Accredited sponsors often receive financial and other support from non-ac­
credited commercial organizations. Such support can contribute significant­
  to the quality of CME activities. The purpose of these Standards is to de-
scribe appropriate behavior of accredited sponsors in planning, designing,
implementing, and evaluating certified CME activities for which commercial
support is received.

STANDARDS

1. General Responsibilities of Accredited Sponors
    Accredited sponsors are responsible for the content, quality and scientific
   integrity of all CME activities certified for credit. identification of continu­
   ing medical education needs, determination of educational objectives,
   and selection of content, faculty, educational methods and materials is
   the responsibility of the accredited sponsor. Similarly, evaluation must be
   designed and performed by the accredited sponsor.

   a. Basic Design Requirements for CME Activities
       In designing educational activities, the accredited sponsor must as-
       sure that the activities have the following characteristics: They must
       be free of commercial bias for or against any product; If the activities
       are concerned with commercial products, they must present objective
       information about those products, based on scientific methods gener­
       ally accepted in the medical community.

   b. I	ndependence of Accredited Sponsors
        The design and production of educational activities shall be the ulti­
        mate responsibility of the accredited sponsor. Commercial

                                                                              1 of5
DRAFT                                                                  DRAFT

2. Enduring Materials
   The             sponsor is responsible for the quality, content, and use of
   enduring materials for purposes of CME credit. (For the definition, see
   ACCME “Standards for Enduring Materials.“)

3. 	          Products, Reporting on Research, and Discussing
   Unlabeled Uses of Products

  a Generic and Trade Names
      Presentations must give a balanced view of therapeutic options.
     Faculty use of generic names will contribute to this impartiality. If trade
     names are used,           of several companies should be used rather
     than only that of a single supporting company.

  b.	 Reporting Scientific Research
       Objective rigorous, scientific research conducted by commercial com­
      panies is an essential part of the process of developing new pharma­
      ceutical or other medical products or devices. It is desirable that direct
      reports of such research be communicated to the medical community.
      An offer by a commercial entity to provide a presentation reporting the
      results of scientific research shall be accompanied by a detailed out-
      line of the presentation which shall be used by the accredited sponsor
      to confirm the scientific objectivity of the presentation. Such informa­
      tion must conform to the generally accepted standards of experimen­
      tal design, data collection and analysis.

  c. Unlabeled Uses of Products
      When an unlabeled use of a commercial product, or an investigation­
      al use not yet approved for any purpose is discussed during an edu­
      cational activity, the accredited sponsor shall require the speaker to
      disclose that the product is not labeled for the use under discussion
      or that the product is still investigational.

4. Exhibits and Other Commercial Activities

  a. Exhibits
     When commercial exhibits are part of the overall program, arrange­
     ments for these should not influence planning or interfere with the
     presentation of CME activities. Exhibit placement should not be a
     condition of support for a CME activity.

  b. C
     	 ommercial Activities During Educational Activities
      No commercial promotional materials shall be displayed or
           tho same room immediately before, during, or immediately after
                                                                          3 of 5
DRAFT                                                                 DRAFT

       an educational activity certified for credit.

   c. Commercial                at Educational Activities
       Representatives of commercial supporters may attend an educational
      activity, but may not engage in sales activities while in the room where
      the activity takes place.

5. Management of Funds from Commercial Sources

   a Independence of the Accredited Sponsor in the Use of Contributed
       Funds
       The ultimate decision ragarding funding arrangements for CME activi­
      ties must be the responsibility of the accredited sponsor. Funds from a
      commercial source should be in the form of an educational grant
       made payable to the accredited sponsor for the support of program­
       ming. The terms, conditions and purposes of such grants must be
      documented by a signed agreement between the commercial sup-
      porter and the accredited sponsor. All support associated with a CME
      activity, whether in the form of an educational grant or not, must be
      given with the full knowledge and approval of the accredited sponsor.
       No other funds from a commercial source shall be paid to the director
      of the activity, faculty, or others involved with the supported activity.

   b. Payments to Faculty
      Payment of reasonable honoraria and reimbursement of out-of-pock­
      et expenses for faculty is customary and proper.

   c Acknowledgement of Commercial Support
      Commercial support must be acknowledged in printed announce­
      ments and brochures, however, reference must not be made to specif­
      ic products.

   d. A
      	 ccountability for Commercial Support
       Following the CME activity, upon request, the accredited sponsor
       should be prepared to report to each commercial supporter, and other
       relevant parties, information concerning the expenditure of funds
       each has provided. Likewise, each commercial supporter should re-
       port to the accredited sponsor information concerning their
       expenditures in support of the activity.

6. Commercially Supported Social Events
   Commercially supported social events at CME activities should not com­
   pete with, nor take precedence over the educational events.

                                                                         4 of 5
DRAFT                                                                    DRAFT

7. Policy on Disclosure of Faculty and Sponsor Relationships

  a Disclosure Policy for All        Activities
      An accredited sponsor shall have a policy requiring disclosure of the
     existence of any significant financial interest or other relationship a
     faculty member or the sponsor has with the manufacturer(s) of any
     commercial product(s) discussed in an educational presentation. All
     certified CME activities shall conform to this policy.

  b. 	Disclosure in Conference Materials
      CME faculty or sponsor relationships with commercial supporters
      shall be disclosed to participants     to educational activities in brief
      statements in conference materials such as brochures, syllabi, ex­
      hibits, poster sessions, and also in post-meeting publications.

     Disclosure for Regularly Scheduled
      In the case of regularly scheduled events, such as grand rounds, dis­
      closure shall be made by the moderator of the activity after consulta­
      tion with the faculty member or a representative of the supporter.
      Written documentation that disclosure information was given to partici­
      pants shall be entered in the file for that activity.          �




8. Financial Support for Participants in Educational Activities

   a. Expenses of Non-Faculty Attendees
       In connection with an educational activity offered by an accredited
      sponsor, the sponsor may not use funds originating from a commer­
      cial source to pay travel, lodging, registration fees, honoraria, or per­
      sonal expenses for non-faculty attendees. Subsidies for hospitality
      should not be provided outside of modest meals or social events that
      are held as part of the activity.

   b. Scholarships for Medical Students, Residents and Fellows
      Scholarship or other special funding to permit medical students, resi­
      dents, or fellows to attend selected educational conferences may be
      provided, as long as the selection of students, residents or fellows
      who will receive the funds is made either by the academic or training
      institution, or by the accredited sponsor with the full concurrence of the
      academic or training institution.




                                                                          5 of 5
         Buyers Up ’                Critical Mass   Health Research Group   �    Litigation
                                      Ralph Nader, Founder




                                                              May 15, 1992




Richard P. Kusserow

Inspector General

330 Independence Ave. SW

Room 5246

Washington, DC 20201

Dear Mr. Kusserow:

     Public Citizen is not surprised by the massive scope of doctor

bribing described in your report, 'Promotion of Prescription Drugs

Through Payments and Gifts: Physicians' Perspectives," but we are

disappointed by the timidity of the report's conclusions.

     In detailing the brazen efforts of pharmaceutical companies to

influence prescribing decisions of physicians, you have done

American health consumers a great service. Consumers now know how

often drug companies try to bribe their doctors and what form these

bribes take. An astounding 82 percent of surveyed physicians

reported being offered gifts and payments by the
industry between fall 1990 and fall 1991.

     Your study also highlights the failure of the          ethical

guidelines to stop the most outrageous types of bribes. Despite

the fact that the guidelines were in effect for 10 of the 12 months

of the survey period, 27 percent of physicians surveyed still

received blantantly unethical offers of gifts from pharmaceutical

companies. Only someone with a wild imagination could believe that

all of these abuses took place in the two months of the survey

before the guidelines were adopted. Even if half took place in this
period, another half represent violations of the ethical code. In

addition,   the   total number of violations is          likely an

underestimate, as doctors who accepted these offers might have been

ashamed to report them.

     The results confirm what we have long suspected: In the

absence of a reliable enforcement mechanism, no voluntary ethical

code or set of guidelines will stop the pharmaceutical industry

from attempting to buy off doctors. At Public Citizen, we continue



                   2000 P Street   ’ Washington, D.C. 20036   (202)
to receive reports of unethical gift offers -- offers that

blatantly violate the     guidelines -- now 16 months after the

voluntary code
     Unfortunately, your report draws only two weak conclusions

from its landmark survey: (1) The Food and Drug Administration

should "finalize guidelines defining what it considers promotional

activity and what it considers scientific interchange" and    "The

Pharmaceutical Manufacturers Association should work with the

American Medical Association to more specifically define lines of

propriety in the remaining gray areas of their guidelines."

     Neither recommendation addresses the heart of the issue --

what will finally stop the pharmaceutical industry from bribing

doctors and sticking U.S. consumers with the bill. Even the

clearest voluntary guidelines are being flaunted today. We believe

the evidence of this failure is compelling enough to justify a role

for the federal government in protecting consumers and defending

the integrity of medicine.

     Accordingly,        should recommend             modeled on

Senator Edward Kennedy's 1977 proposal to outlaw   transfer . . .
of any gift, product, premium, prize or other things of value" to

a doctor or pharmacist from the drug industry "if the purpose of

such transfer is to influence the prescribing, administering or

dispensing of any such drug."                           .

     Mr.             you have taken the lead in exposing the

corrupting influence of pharmaceutical companies in medicine. We

hope that you will not shy away from the fight to eradicate it.


                                          Sincerely,





Joshua M. Sharfstein                      Sidney    Wolfe, M.D.

Researcher, Public Citizen                Director, Public Citizen

Health Research Group                     Health Research Group





                             --   2
 --
                             APPENDIX F


                                        NOTES


1.	   The AMA and PMA allowed a transition period of a few months to allow
      already committed obligations to be carried out.
2.	   U.S. Department of Health and Human Services, Office of Inspector General,
      “Promotion of Prescription Drugs through Payments and Gifts,” August 1991,
      OEI-01-90-00480.
3.	   One observer of relationships between physicians and pharmaceutical
      companies noted the following: “Whenever a physician accepts a gift from a
      drug company, an implicit relationship is established between a physician and
      the company or its representative. Inherent in the relationship is an obligation
      to respond to the gift; this obligation may influence the physician’s decision with
      regard to patient care.” M. Chren, C.S. Landefield, and T. Murray, “Doctors,
      Drug Companies and Gifts,” Journal of the American Medical Association 262,
      no. 24 (1989): 3448-3451. Further, the American Medical Association Council
      on Ethical and Judicial Affairs acknowledged the subtle effects of gifts: ‘There
      is no evidence that physicians knowingly or intentionally compromise their
      patients’ care as a result of gifts from industry. Nevertheless, the practice of
      gift-giving may mobilize subtle influences that can result in practice patterns
      based on considerations that go beyond scientific knowledge and patient needs.”
      Gifts to Physicians from Industry, American Medical Association, Council on
      Ethical and Judicial Affairs, Report G, Adopted

4.	   The American Medical Association guidelines on gifts from industry, which
      were fully adopted by the Pharmaceutical Manufacturers Association state that
      “Some gifts that reflect customary practices of industry may not be consistent
      with principles of medical ethics” (see appendix A for the complete text).

5.	   Observers such as the AMA’s general counsel note dramatic effects of the
      guidelines in positive respects: “As a general rule, today, unlike this time last
      year, physicians are not receiving substantial inducements -- in forms of travel,
      lodging, and cash -- to attend either educational or promotional events which
      are funded by drug companies.” C. Culhane,          But AMA, PMA Say
      Guidelines Working,” American Medical News (September 2, 1991): 3. In
      contrast, Consumer Reports cited efforts by the pharmaceutical industry to
      comply with the letter but not the spirit of the guidelines: “Consulting firms who
      design and run campaigns for drug companies are even placing ads in trade
      publications bragging of their ability to put on sales-boosting dinner meetings
      that comply with the AMA rules.” “Pushing Drugs to Doctors,” Consumer
      Reports, February 1992, 89.


                                         F-l
6.        of December 27, 1991, 55 of the calls to the hotline have generated
      information         as “possible investigative leads” into inappropriate or illegal
      advertising promotional practices. “Snitchline Proves Professionals Want to
      Talk to FDA Not Just about Ads,”            Newsletter, January 13, 1992, 4-5.

7.    The 95 percent confidence interval around these estimates are 79 percent to 85
      percent and 75 percent to 83 percent.
8.    Based on 460 physicians who answered the question. The 95 percent
      confidence interval around this estimate is 24 to 32 occasions.
9.    The 95 percent confidence interval around the percent offered gifts and
      payments other than small gifts is 67 percent to 75 percent; the 95 percent
      confidence interval around the number of occasions is 10 to 16.
10.   Based on 460 physicians who answered the question. The mean value was
      $727, but this was clearly skewed by some very high values. Accordingly, the 95
      percent confidence interval around the mean is $457 to $1,013. We feel the
      median more accurate describes the central value of the offers.
11.   Again the mean was skewed by some high values. The 95 percent confidence
      interval around the mean is $24 to $66.
12.   We tested the hypothesis that physicians who write 50 or more prescriptions
      per week were as likely as physician who write less than 50 prescriptions per
      week to be offered a payment or gift on at least one occasion. We rejected this
      hypothesis because the chi-square value was 50 at 1 degree of freedom.
13.   Council on Ethical and Judicial Affairs, “Gifts to Physicians from Industry,”
      Journal of the American Medical Association 265, no. 4 (1991): 501.

14.   Focus group sessions pose this issue particularly pointedly. Pharmaceutical
      manufacturers often hire marketing consultants to organize and gather focus
      groups to discuss the marketing plans for a new or existing drug. These focus
      groups consist of several physicians who are paid for their time. The physicians
      are asked to judge the relative effectiveness of various sets of marketing
      material. Meanwhile, they are being given a variety of messages about the
      effectiveness and power of the drug in the material. It is not clear whether this
      type of consulting arrangement is token or not, probably not even to the
      physician involved. It could very well be that these sessions have dual
      purposes: (1) to provide direct marketing to the physician and (2) to get some
      advice on marketing plans.
15.   We asked physicians whether they had been offered entertainment or sporting
      event tickets, pharmaceutical samples for personal/family use, and other items
      for personal/family use. We question whether the pharmaceutical samples for



                                         F-2
      personal/family use fall within the             guidelines and for that reason
      did not include them in this analysis.

16.   The 95 percent confidence interval on the overall proportion of physician
      extended at least one offer defined by the guidelines as inappropriate is 23
      percent to 31 percent.
17.   The rate of offers was significantly lower for physicians who prescribe less
      frequently. For example, the chi-square comparing rates for physicians who
      write less than 5 prescriptions a week to physicians who write at least 5 was 10
      with 1 degree of freedom; at 10 or more prescriptions per week vs. less than 10
      per week it was 15.5 (1 degree of freedom), and at 50 or more prescriptions
      per week vs. less than 50 per week it was 22 (1 degree of freedom).

18.   It may be that physicians did not answer this question entirely correctly, and
      that pharmaceutical companies are not offering samples for this use, but
      physicians are requesting them for this use.
19.   See Office of Inspector General, op. cit., pp. 13-14. Other medical
      organizations are more clear about defining research funding that constitutes
      unethical behavior by their members. The American College of Obstetricians
      and Gynecologists’ guidelines do not allow pharmaceutical companies to control
      the design of studies or the publishing of data. The Infectious Diseases Society
      of America disapproves of accepting research funding directly from a
      pharmaceutical company, and instead advises that funding flow through an
      institution.

20.   See our earlier report on this issue for a description of FDA’s roles and activity
      in this area.

21.   Food and Drug Administration, “Drug Company Supported Activities in
      Scientific or Educational Contexts: Draft Concept Paper”, October 26, 1991.
22.   The AMA’s general counsel has stated that he perceives practices to have
      changed significantly because of the guidelines: “The major gifts to physicians
      that raised the most controversy, lodging and travel to educational events are,
      for the large part, over.” T. Randall, “AMA, Pharmaceutical Association for
      ‘Solid Front’ on Gift-Giving Guidelines,” Journal of the American Medical
      Association 265, no. 18 (May 8, 1991): 2304.

23.   All specialties with less than 30 sampled were grouped into an Other category.

24.   “IG to Survey      on Gifts from Pharmaceutical Firms,” Medicare
      Compliance Alert, V.3, N.9, April 29, 1991, 2.

25.   SAS Institute Inc.,   Language Guide for Personal Computers, Version 6
      Edition. Cary, NC: SAS Institute Inc.. 1985


                                         F-3
26.	   This section of the survey relates to another inspection on adherence to the
       Prescription       Marketing Act of 1987.




                                         F-4

26.	   This section of the survey relates to another inspection on adherence to the
       Prescription                  Act of 1987.




                                         F-4

